               AUDIT OF THE
       OFFICE OF JUSTICE PROGRAMS
         EDWARD BYRNE MEMORIAL
JUSTICE ASSISTANCE GRANT PROGRAM GRANT
             AWARDED TO THE
     CITY OF LONG BEACH, CALIFORNIA



        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-90-10-001
            September 2010
                          AUDIT OF THE
                  OFFICE OF JUSTICE PROGRAMS
                    EDWARD BYRNE MEMORIAL
           JUSTICE ASSISTANCE GRANT PROGRAM GRANT
                        AWARDED TO THE
                CITY OF LONG BEACH, CALIFORNIA

                            EXECUTIVE SUMMARY

      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Edward Byrne Memorial Justice
Assistance Grant (JAG) Program grant (2008-DJ-BX-0229), awarded by the
Office of Justice Programs (OJP), Bureau of Justice Assistance, to the City of
Long Beach, California (Long Beach). Long Beach used the JAG grant to
fund probation officer services obtained through a contract with the County
of Los Angeles Probation Department. The goal was to utilize the services of
a specially trained and selected Deputy Probation Officer from the County of
Los Angeles to assist the Long Beach Police Department in its gang
enforcement operations. The ultimate goal of this effort was to make Long
Beach a safer city. OJP awarded a total of $124,223 to fund 1-year’s worth
of probation officer services within a 4 year period. As of April 19, 2010,
Long Beach had expended $68,403 (55 percent) of the grant award. 1

       The purpose of the Bureau of Justice Assistance’s JAG Program is to
enable states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and criminal justice information systems in any one or more of the following
purpose areas:

       • Law enforcement programs

       • Prosecution and court programs

       • Prevention and education programs

       • Corrections and community corrections programs


       1
          We began our audit of Grant 2008-DJ-BX-0229 on April 19, 2010, which is also
referred to as the start of audit fieldwork.
     • Drug treatment programs

     • Planning, evaluation, and technology improvement programs

     • Crime victim and witness programs (other than compensation)

Audit Results

      The purpose of our audit was to determine whether costs claimed
under Grant 2008-DJ-BX-0229 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) cash management; (3) grant expenditures; (4) budget management and
control; (5) matching; (6) property management; (7) program income;
(8) Financial Status Reports and Progress Reports; (9) grant requirements;
(10) program performance and accomplishments; and (11) monitoring of
sub-grantees and contractors. We determined that indirect costs, budget
management and control, property management, program income, and
management of sub-grantees were not applicable to this grant.

      As a result of our audit, we found that Long Beach’s financial
management system provided adequate recording and reporting of grant-
related activities. For the one grant drawdown that was available for review,
we found it to be adequately supported and Long Beach was managing the
grant receipt in accordance with federal requirements. The Financial Status
Reports and Progress Reports that we reviewed were submitted in a timely
manner and all Financial Status Reports were accurate. However, we noted
the following exceptions:

     •   $68,403 in grant expenditures lacked adequate support;

     •   $548 of overtime billed to the grant exceeded the overtime rate as
         specified in the related contract;

     •   administrative costs charged to the grant exceeded grant limits by
         $5,035 and Long Beach was expected to pay another $5,035 in the
         future in excess of grant limits;

     •   Long Beach lacked policies or procedures related to monitoring
         contractors and it lacked sufficient evidence that it monitored its
         contractor, the County of Los Angeles Probation Department; and



                                    - ii -
      •   the annual Progress Report for calendar year 2009 did not
          accurately report information on the work being performed under
          the grant.

      These items are discussed in detail in the Findings and
Recommendations section of the report. Our report contains seven
recommendations to OJP. We discussed the results of our audit with Long
Beach officials and have included their comments in the report, as
applicable. In addition, we requested from Long Beach and OJP written
responses to our draft report, which are included in this report as appendices
II and III, respectively. Our audit objective, scope, and methodology are
discussed in Appendix I.




                                    - iii -
                                  TABLE OF CONTENTS


INTRODUCTION .......................................................................... 1
       Background .......................................................................... 2
       OIG Audit Approach .............................................................. 3
FINDINGS AND RECOMMENDATIONS ............................................. 5
       Internal Control Environment ................................................. 5
            Single Audit.................................................................... 6
            Financial Management System .......................................... 6
       Drawdowns .......................................................................... 7
       Grant Expenditures ............................................................... 7
       Matching .............................................................................. 8
       Reports ............................................................................... 9
            Financial Status Reports................................................... 9
            Annual Progress Reports .................................................. 9
       Compliance with Grant Requirements .....................................10
       Program Performance and Accomplishments ...........................11
       Monitoring of Contractor .......................................................12
       Conclusion ..........................................................................13
       Recommendations ...............................................................14
SCHEDULE OF DOLLAR-RELATED FINDINGS ..................................15
APPENDICES:
I.      OBJECTIVE, SCOPE, AND METHODOLOGY .............................16
II.     GRANTEE RESPONSE ..........................................................18
III.    DEPARTMENT OF JUSTICE RESPONSE ...................................21
IV.     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
        CLOSE THE REPORT ...........................................................24
                                   INTRODUCTION

      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Edward Byrne Memorial Justice
Assistance Grant (JAG) Program grant (2008-DJ-BX-0229), awarded by the
Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the
City of Long Beach, California (Long Beach). Long Beach used the JAG grant
to fund probation officer services obtained through a contract with the
County of Los Angeles Probation Department. The goal was to utilize the
services of a specially trained and selected Deputy Probation Officer from the
County of Los Angeles to assist the Long Beach Police Department in its
gang enforcement operations. The ultimate goal of this effort was to make
Long Beach a safer city. As shown in the table below, OJP awarded a total of
$124,223 to fund 1-year’s worth of probation officer services within a 4 year
period. As of April 19, 2010, Long Beach had expended $68,403
(55 percent) of the grant award. 2

                              EXHIBIT 1
         JUSTICE ASSISTANCE GRANT AWARDED TO LONG BEACH
      GRANT AWARD         AWARD         AWARD
                                                 AWARD AMOUNT
         NUMBER         START DATE    END DATE 3
     2008-DJ-BX-0229     10/01/07      09/30/11      $124,223
  Source: OJP

      The purpose of our audit was to determine whether costs claimed
under Grant 2008-DJ-BX-0229 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) cash management; (3) grant expenditures; (4) budget management and
control; (5) matching; (6) property management; (7) program income;
(8) Financial Status Reports (FSR) and Progress Reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of sub-grantees and contractors. We determined that
indirect costs, budget management and control, property management,
program income, and management of sub-grantees were not applicable to
this grant.




       2
          We began our audit of Grant 2008-DJ-BX-0229 on April 19, 2010, which is also
referred to as the start of audit fieldwork.
       3
           The Award End Date includes all time extensions that were approved by OJP.
Background

       Long Beach is located in the southern portion of the state of California,
approximately 20 miles south of downtown Los Angeles, along the Pacific
Coast within Los Angeles County. Long Beach has a population of nearly half
a million and covers approximately 50 square miles. It is home to the
busiest cargo port on the West Coast. The Long Beach Police Department
has nearly a thousand police officers. In calendar year 2009, Long Beach
experienced 28,086 total crimes, which included 15,896 violent crimes and
12,190 property crimes. In addition, according to Long Beach’s grant
application, Long Beach has over 55 gangs that include more than
6,000 primary members and 2,000 secondary and affiliated members. Of
these, six gangs have 301 to 800 members and seven gangs have 100 to
300 members. There are approximately 6,100 parolees and 5,100 adult and
juvenile probationers in Long Beach.

      OJP’s mission is to increase public safety and improve the fair
administration of justice through innovative leadership and programs.
Specifically, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system.
The BJA’s overall goals are to: (1) reduce and prevent crime, violence, and
drug abuse; and (2) improve the way in which the criminal justice system
functions.

       The purpose of the BJA’s JAG Program is to enable states, tribes, and
local governments to support a broad range of activities to prevent and
control crime based on their own local needs and conditions. JAG funds can
be used for state and local initiatives, technical assistance, training,
personnel, equipment, supplies, contractual support, and criminal justice
information systems in any one or more of the following purpose areas:

      • Law enforcement programs

      • Prosecution and court programs

      • Prevention and education programs

      • Corrections and community corrections programs

      • Drug treatment programs

      • Planning, evaluation, and technology improvement programs

      • Crime victim and witness programs (other than compensation)


                                     -2-
       Long Beach received JAG funds for 3 years prior to being awarded
Grant 2008-DJ-BX-0229. Similar to the previous grants, the grant we
audited was designated to pay for 1-year’s worth of contractual probation
services from the County of Los Angeles. Under the terms of the contract,
the County of Los Angeles Probation Department agreed to assign a Deputy
Probation Officer to work alongside police officers at the Long Beach Police
Department. According to the grant application, Long Beach planned to use
the services of the Los Angeles County Deputy Probation Officer as part of its
gang enforcement efforts. The overall goal of the contract was to provide a
full range of probation services, from enforcement presence on the streets of
Long Beach to counseling and resource referrals for adult and juvenile
probationers, their families, and pre-delinquent youth. The ultimate goal of
this effort was to make Long Beach a safer city.

OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant award. Unless otherwise stated in our report, the
criteria we audited against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars. Specifically, we tested:

      •   Internal control environment – to determine whether the
          internal controls in place for the processing and payment of funds
          were adequate to safeguard grant funds and ensure compliance
          with grant terms and conditions.

      •   Grant drawdowns – to determine whether grant drawdowns were
          adequately supported and if Long Beach was managing grant
          receipts in accordance with federal requirements.

      •   Grant expenditures – to determine whether costs charged to the
          grant were accurate, adequately supported, and allowable.

      •   Compensation reasonableness – to determine whether salaries
          paid by the grant were reasonable.

      •   Matching – to determine whether the grantee’s match conformed
          to grant requirements.

      •   Financial Status Reports and Progress Reports – to determine
          if the required FSR and Progress Reports were submitted on time
          and accurately reflected grant activity.



                                     -3-
     •   Grant requirements – to determine whether Long Beach complied
         with grant award guidelines and grant solicitation criteria.

     •   Program objectives and accomplishments – to determine
         whether Long Beach made a reasonable effort to accomplish stated
         objectives.

     The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                    -4-
              FINDINGS AND RECOMMENDATIONS

           We found that Long Beach did not maintain adequate
           support for $68,403 claimed under Grant
           2008-DJ-BX-0229. Also, we found $548 in grant
           expenditures that related to instances of overbilled
           overtime for the contracted Deputy Probation Officer.
           Further, Long Beach exceeded grant limits by paying
           $5,035 in administrative costs. As a result, we
           questioned $73,986. In addition, we identified
           another $5,035 in administrative costs that we
           anticipate Long Beach will charge to the grant and
           that will likewise exceed grant limits. Although Long
           Beach timely submitted accurate quarterly FSRs, it
           did not accurately report the progress made in its
           2009 Progress Report. Lastly, we noted that Long
           Beach did not have procedures in place for
           monitoring contractors and there was a lack of
           documentation to evidence that Long Beach was
           monitoring its contractor, the County of Los Angeles
           Probation Department and its Deputy Probation
           Officer.

Internal Control Environment

      We reviewed Long Beach’s policies and procedures, Single Audit Report,
and financial management system to assess the city’s risk of noncompliance
with laws, regulations, guidelines, terms and conditions of the grant. We also
interviewed individuals from the Long Beach’s grant management, accounting,
and audit staff regarding internal controls and processes in the payroll,
purchasing, and accounts payable functions and observed the financial
management system, as a whole, to further assess risk.

       Our review of any potential internal control issues disclosed in the
Single Audit Report or found in our review of Long Beach’s financial
management system are discussed below in the Single Audit section and
Financial Management section, respectively. We reviewed Long Beach’s
policy for grants processing and determined that Long Beach has complied
with the grant processing policy for the grant that we audited. In addition,
we reviewed the City’s accounting system and determined that it adequately
tracked grant receipts and expenditures and that all grant-related activities
were separately accounted for in the system. We interviewed Long Beach
officials in charge of the grant to obtain an understanding of Long Beach’s
internal controls. As a result, we discovered that there was an internal


                                    -5-
control weakness in the payment approval process for the two grant-related
expenditures that we reviewed. We discuss this issue in the Grant
Expenditures section of this report. We also found no evidence that Long
Beach was monitoring its contractor, the County of Los Angeles Probation
Department, during the grant period. We discuss this issue in the
Monitoring Contractor section of this report.

Single Audit

       According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. At the start of our fieldwork, the
most recent single audit available for Long Beach was for FY 2008. 4 The
FY 2009 single audit for Long Beach had not been issued when we began our
audit fieldwork. We reviewed Long Beach’s FY 2008 Single Audit Report and
found that it disclosed eight significant deficiencies on internal controls
related to major programs and to financial reporting. None of the eight
significant deficiencies directly related to any JAG funds or DOJ grant funds.
Long Beach has already corrected some of these significant deficiencies and
they have provided planned corrective action for the remaining deficiencies.
We assessed the risk of these deficiencies on our audit of Grant
2008-DJ-BX-0229 and determined that these deficiencies did not increase
the risk or the scope of our audit.

Financial Management System

      The OJP Financial Guide requires that all grant fund recipients
“establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.” The guide additionally
requires that the accounting system provide adequate recording and
reporting of financial data to enable planning, control, and measurement.
The Guide also requires that grantees separately account for each award and
not commingle grant funds.

       Except for the lack of adequate supporting documents that we discuss
later in the Grant Expenditures section of this report, we found that Long
Beach adequately maintained grant-related financial records and data. Also,
Long Beach utilized an accounting system entitled “Financial Accounting and
Management Information System.” Based on our overall review of grant-
related transactions that were recorded in this system, we found that the
system accurately accounted for grant-related receipts and expenditures.


      4
          Long Beach’s fiscal year (FY) is from October 1 through September 30.


                                            -6-
Further, grant-related transactions (receipts and expenditures) were
separately tracked from all other funding.

Drawdowns

       Before the initial drawdown of grant funds, Long Beach was required to
notify OJP that it has met the local governing body review and community
notification requirements. On August 11, 2009, Long Beach notified OJP
that it had satisfied this grant special condition. Further, as of April 19,
2010, Long Beach had made only one drawdown in the amount of $34,122.
This sole drawdown was made on a reimbursement basis and it was
supported by its accounting records.

Grant Expenditures

      We reviewed Long Beach’s grant-related general ledger and noted that
there were only two grant-related expenditures, totaling $68,403. The two
expenditures comprised of two payments made on the contract with the
County of Los Angeles Probation Department. Each payment had an invoice
associated with the transaction and it included charges for a Deputy
Probation Officer’s regular salary, fringe benefits, and overtime. In addition,
$22,493 of the $68,403 represented what was described as support staff
services. 5

     In testing the two grant-related expenditures, we compared the
Deputy Probation Officer’s regular salary to the approved County of Los
Angeles salary schedule and found that the annual salary of the Deputy
Probation Officer fell within the approved salary range for the County of Los
Angeles. This meant that the Deputy Probation Officer’s regular salary rate
was reasonable according to the County’s approved salary schedule.

      Even though there was an invoice for each of the two expenditures, we
found that the two transactions were inadequately supported. Long Beach
received a one page invoice for each transaction from the County of Los
Angeles Probation Department. These invoices’ detail included information
such as the billing period, a total amount for the Deputy Probation Officer’s
regular salary, fringe benefits, and support staff services, and a separate
amount for overtime. There was no breakdown between the regular salary,
fringe benefits, and support staff services. Also, there was no support that
accompanied the invoices such as timesheets, time cards, or certifications
that the Deputy Probation Officer worked full-time on the grant. The lack of

       5
        We discuss support staff services in more detail in the Compliance with Grant
Requirements section of this report.


                                           -7-
adequate support was especially important for the overtime claimed because
there was nothing to verify the amount billed by the County to Long Beach.
Long Beach officials stated that the County of Los Angeles Probation
Department did not provide supporting documentation with its invoices.
However, Long Beach officials also acknowledged that they did not request
or insist on receiving supporting documentation from the County. Long
Beach felt that support from the County was unnecessary as they work with
the Deputy Probation Officer on a daily basis. As a result of the lack of
adequate support for these two transactions, we question the total of these
invoices for $68,403.

      Moreover, as we reviewed the two expenditures, we noted an internal
control weakness in Long Beach’s payment authorization process.
Specifically, Long Beach paid both invoices without identifying the need for
adequate support. Long Beach officials could have requested of the County
the Deputy Probation Officer’s time records prior to approving payment of the
invoices, but they failed to do so. We asked Long Beach Officials to comment
on this internal control weakness and they responded by stating that they
have strengthened internal controls to include a requirement that time records
on similar transactions need to be reviewed before payment is made.

       Further, we found that both expenditures included instances of over-
billing. The overtime rate stated on the invoices did not match the overtime
rate stipulated in the contract; the invoices included an overtime rate of
approximately $64 per hour while the contract stipulated an overtime rate of
approximately $54 per hour. As a result, we determined that the two
payments on the contract were overstated by $548. Long Beach officials
were not aware of the overbilling until we brought it to their attention. We
asked Long Beach officials to comment on this and to explain why it did not
catch this discrepancy before making payment on the overbilled invoices.
The grantee was not able to provide us with a reason on not discovering the
overtime rate discrepancy before making payment on the invoices.
Therefore, we question the $548 related to the overbilling of the Deputy
Probation Officer’s overtime.

Matching

       According to OJP’s grant award documents and the grant solicitation,
Long Beach was not required to provide a match for this grant. Nevertheless,
Long Beach plans to provide a local match of $15,777 to cover the difference
in anticipated costs that will exceed the grant award amount. Long Beach
Officials stated that they would use a State of California Community Oriented
Policing Services grant to fund the voluntary local match amount. As of



                                    -8-
April 19, 2010, Long Beach has not made any match payments for grant
related expenditures.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly FSRs and annual Progress Reports. These reports
describe the status of the funds, compare actual accomplishments to the
objectives of the grant, and report other pertinent information. We reviewed
the FSRs and the Progress Reports submitted by Long Beach to determine
whether each report was accurate and timely submitted to OJP.

Financial Status Reports

       According to the OJP Financial Guide, the quarterly FSRs are due no
later than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. We reviewed the timeliness of the
last four FSRs submitted during the award period for the grant. Based on our
review, we found that Long Beach submitted each report in a timely manner.

                                 EXHIBIT 2
                FINANCIAL STATUS REPORT HISTORY FOR
                          GRANT 2008-DJ-BX-0229
   Report          Reporting          Report      Date               Days
    No.              Period          Due Date   Submitted            Late
     1         01/01/09 - 03/31/09    05/14/09   05/14/09             0
     2         04/01/09 - 06/30/09    08/14/09   08/11/09             0
     3         07/01/09 - 09/30/09    11/14/09   11/12/09             0
     4         10/01/09 - 12/31/09    02/14/09   01/19/09             0
Source: Long Beach and OJP

      We also reviewed each FSR to determine whether the report contains
accurate information related to actual expenditures, un-liquidated obligations
incurred during the reporting period, and cumulative expenditures for the
award. Based on our review, we found that the FSRs submitted were
accurate.

Annual Progress Reports

      The OJP Financial Guide requires grantees to submit Progress Reports
semiannually for discretionary awards and annually for block or formula
awards. Since this grant is a formula grant award, it is subject to the annual
requirement. We reviewed the last two Progress Reports submitted during




                                    -9-
the award period for the grant, and found that Long Beach submitted each
report in a timely manner.

                                 EXHIBIT 3
                     PROGRESS REPORT HISTORY FOR
                          GRANT 2008-DJ-BX-0229
   Report          Reporting          Report       Date               Days
    No.              Period          Due Date   Submitted             Late
     1         10/01/07 - 12/31/08   03/31/09    02/23/09              0
     2         01/01/09 - 12/31/09   03/31/10    02/02/10              0
Source: Long Beach and OJP

      The OJP Financial Guide states that:

            …the funding recipient agrees to collect data appropriate
            for facilitating reporting requirements established by Public
            Law 103-62 for the Government Performance and Results
            Act. The funding recipient will ensure that valid and
            auditable source documentation is available to support all
            data collected for each performance measure specified in
            the program solicitation.

       We found no discrepancies with Long Beach’s first Progress Report,
which covered calendar year 2008. However, on Long Beach’s second
Progress Report, which covered calendar year 2009, we found that the
report contained inaccurate responses. Specifically, we found two questions
that were related to the grant’s objectives but were marked as not
applicable. We asked Long Beach officials why accurate responses were not
provided on the two questions in the annual Progress Report. Long Beach
officials stated that they were not aware of the relevant documentation, such
as the Deputy Probation Officer’s monthly performance measures summary,
that was available to them when preparing the annual Progress Report. As a
result, OJP did not receive from Long Beach a complete assessment of the
grant’s progress.

Compliance with Grant Requirements

       We reviewed Long Beach’s compliance with specific program
requirements in the grant solicitation as well as special conditions included in
its grant award. Generally, Long Beach complied or was complying with
grant requirements. However, we found one instance where Long Beach had
paid and planned to continue paying for administrative cost above the
required limit that was stipulated in the grant solicitation.




                                     - 10 -
       The grant solicitation stated that “a unit of local government may use
up to 10 percent of the award for costs associated with administering JAG
funds.” However, we found that Long Beach had allocated $22,493, or
approximately 18 percent of the total grant award, for supporting staff
services related to its probation officer services contract with the County of
Los Angeles Probation Department. Based on our assessment, the support
staff services that the County has billed and plans to continue to bill Long
Beach is in essence administrative in nature and therefore meets the
description found in the grant solicitation. Long Beach officials disagreed
with our assessment and stated that it did not consider the cost of the
County’s support staff services as being administrative costs, but rather part
of the contractual arrangement and that these costs should be considered
contractual expenditures. We disagree with Long Beach’s understanding of
these costs. Although the support staff services that the County has billed
and plans to continue billing are related to the contract between Long Beach
and the County of Los Angeles Probation Department, these costs are in
essence administrative in nature. Further, given that the entire grant is
devoted to paying for the contract with the County, we view the
administrative costs that the County bills Long Beach as meeting the
definition that is found in the grant solicitation— as “…costs associated with
administering JAG funds.” As a result, we question $5,035, or the amount
that Long Beach already paid to the County for support staff services above
the 10 percent limit. Further, given that Long Beach intends to pay a total
of $22,493 to the County for support staff services as part of its contractual
arrangement, we consider an additional $5,035 as funds that will be paid for
these administrative costs above the 10 percent limit as funds that can be
put to better use.

Program Performance and Accomplishments

      According to Long Beach’s grant application, Long Beach planned to use
the grant award to fund a contract with the County of Los Angeles Probation
Department in order to obtain probation officer services to aid its local law
enforcement efforts. We found that Long Beach followed through on its plans
by contracting with the County of Los Angeles Probation Department. To that
end, a Los Angeles County Deputy Probation Officer was assigned to the Long
Beach Police Department as directed by the contract.

       Moreover, some of the duties of the County’s Deputy Probation Officer
were supposed to include: (1) daily ride-alongs with gang suppression
officers, (2) arresting juveniles and adults for probation violations,
(3) warrant enforcement, (4) gathering gang intelligence, (5) conducting
home calls, (6) conducting drug test, (7) confiscating contraband,
(8) visiting schools, (9) conducting probation searches of persons, vehicles


                                    - 11 -
and residences, as well as (10) making hundreds of contacts with both
probationers and non-probationers. Additionally, the Deputy Probation
Officer was supposed to be available at all hours via cell phone, and was
supposed to process probation holds and verify probation status with his or
her special County-issued laptop computer. 6

      We interviewed the Deputy Probation Officer as well as officers from
the Long Beach Police Department to determine whether the County’s
Deputy Probation Officer was in fact performing the duties listed above.
Further, we reviewed documents, such as the Deputy Probation Officer’s
monthly performance measures summary and bi-annual progress reports.
We determined that the Deputy Probation Officer was performing for Long
Beach the duties listed above.

Monitoring of Contractor

      The OJP Financial Guide states that grantees are required to “…ensure
that monitoring of organizations under contract to them is performed in a
manner that will ensure compliance with their overall financial management
requirements.” Additionally, Title 28 CFR § 66.36 requires that grantees
“maintain a contract administration system which ensures that contractors
perform in accordance with terms, conditions, and specifications of their
contracts or purchase orders.”

      In the Grant Expenditures section of this report, we described Long
Beach’s failure to maintain adequate supporting documentation on the two
expenditures in the grant, which were payments on Long Beach’s contract
with the County of Los Angeles Probation Department. Specifically, we
stated that Long Beach was billed for a Los Angeles County Deputy Probation
Officer’s regular salary, fringe benefits, and overtime as well as support staff
services. However, Long Beach did not maintain documentation that would
support the time worked by the Deputy Probation Officer or the amount
being charged for support staff services. Both of the expenditures were
approved for payment without any evidence to indicate that someone at
Long Beach or at the Long Beach Police Department was actually monitoring
the hours being worked by the County’s Deputy Probation Officer. Likewise,
Long Beach believed it was acceptable to pay for support staff services, even
though these administrative costs exceeded the 10 percent limit as
stipulated in the grant solicitation and adequate support documentation


       6
         A probation hold is placed by the Deputy Probation Officer on an adult probationer
who is believed to be in violation of the terms of his or her probation. The probation hold
precludes a probationer from being release on bail before the matter is heard by a judge.



                                           - 12 -
was lacking. 7 Based on these findings, Long Beach lacked adequate
documentation or evidence to indicate that it was properly monitoring its
contractor, the County of Los Angeles Probation Department and its Deputy
Probation Officer. Long Beach Police Department Officials stated that
because they worked with the Deputy Probation Officer on an almost daily
basis, they felt that their observation of the Deputy Probation Officer was
sufficient evidence for them to approve the county’s invoices.

       The lack of evidence of Long Beach’s monitoring of the County of Los
Angeles Probation Department and its Deputy Probation Officer led us to ask
Long Beach Officials whether there were any policies or procedures requiring
monitoring of contractors. According to Long Beach officials, there were no
policies or procedures that required the monitoring of contractors or the
maintaining of evidence of its monitoring efforts. The lack of such policies and
procedures is an internal control weakness in Long Beach’s monitoring efforts
over contractors. We recommend that Long Beach implement policies and
procedures that would strengthen internal controls in this area. Long Beach
officials stated that the Long Beach Police Department will document the
monitoring of the contractor by initialing and making corrections, if necessary,
to each of the Deputy Probation Officer’s timecards. Additionally, the Long
Beach Police Department will review the invoice costs to determine whether it
is in accordance to the terms of the contract.

Conclusion

      We examined Long Beach’s grant-related accounting records, FSRs,
Progress Reports, and operating policies and procedures and found that the
financial management system provides for the adequate recording and
reporting of grant-related activities. For the one grant drawdown that was
available for review we found it to be adequately supported and Long Beach
was managing the grant receipt in accordance with federal requirements.
The FSRs and Progress Reports that we reviewed were submitted in a timely
manner and all FSRs were accurate.

      However, the two transactions that we reviewed, totaling $68,403, were
not adequately supported. The transactions related to payments made on a
contract for the services of a Los Angeles County Deputy Probation Officer. As
such, there were no records other than brief invoices to support the amount of
time that the Deputy Probation Officer charged to the grant. Further, $548 of
overtime billed to the grant exceeded the overtime rate as specified in the
contract. Further, a portion of the contract payments that Long Beach charged

       7
          For a more detailed discussion regarding the support staff services that the County
of Los Angeles billed to Long Beach, please see the Compliance with Grant Requirements
section of this report.


                                            - 13 -
to the grant related to support staff services. Based on the nature of these
transactions, we considered them administrative costs and therefore subject to
limitations. The total amount paid for these costs exceeded grant limits on
administrative costs by $5,035. Since the contract was not completed by the
time we began our fieldwork, we calculated another $5,035 in administrative
costs that Long Beach was expected to charge to the grant that likewise would
exceed grant limits. We concluded that an internal weakness existed in Long
Beach’s efforts to monitor its contractor based on the findings described above,
the lack of policies or procedures at Long Beach related to monitoring
contractors, and the lack of sufficient evidence documenting Long Beach’s
monitoring of its contractor, the County of Los Angeles Probation Department
and its Deputy Probation Office. Lastly, the annual Progress Report for
calendar year 2009 did not accurately report the information on the work being
performed under the grant. Altogether, we made seven recommendations to
OJP to address these findings.

Recommendations

     We recommend that OJP:

1.   Remedy $68,403 in questioned costs for inadequately supported
     contractual payments.

2.   Remedy $548 in questioned costs for overbilled Deputy Probation
     Officer overtime.

3.   Ensure that Long Beach strengthens its internal controls related to its
     approval and authorization of vendor invoices and payments.

4.   Ensure that Long Beach submits to OJP accurate and complete annual
     Progress Reports.

5.   Remedy $5,035 in questioned costs that exceeded the allowable limits
     for administrative costs charged to grant as the County of Los Angeles’
     support staff services.

6.   Remedy $5,035 in Funds to Better Use that is anticipated to be paid by
     Long Beach and that exceed allowable limits for administrative costs
     charged to the grant as the County of Los Angeles’ support staff
     services.

7.   Ensure that Long Beach strengthens its internal controls by
     establishing written policies and procedures for monitoring contractors.




                                    - 14 -
           SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                       AMOUNT ($)          PAGE

Unsupported Costs

   Unsupported Contractual Expenditures                    $68,403                8

Unallowable Costs

   Overbilling of Overtime                                     $548               8

   Administrative Cost Overage                              $5,035            11

Subtotal of Unsupported and Unallowable Costs $73,986

Less: Adjustment to match total drawdowns                  <39,864>

TOTAL QUESTIONED COSTS                                    $34,122


FUNDS PUT TO BETTER USE:

   Future Administrative Cost Overage                       $5,035            11

TOTAL DOLLAR RELATED FINDINGS                             $39,157


Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.

Funds Put to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations




                                      - 15 -
                                                                APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under Grant 2008-DJ-BX-0229 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) cash management; (3) grant expenditures; (4) budget management and
control; (5) matching; (6) financial status and progress reports; (7) property
management; (8) program income; (9) grant requirements; (10) program
performance and accomplishments; and (11) management of subgrantees
and contractors. We determined that indirect costs, budget management
and control, property management, indirect costs, program income, and
management of subgrantees were not applicable to this grant.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit’s objective.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2008-DJ-BX-0229 in
October 2007 through March 2010. Further, the criteria we audited against
are contained in the OJP Financial Guide, Code of Federal Regulations, Office
of Management and Budget Circulars, and specific program guidance, such
as award documents and the grant solicitation.

       We did not test internal controls for Long Beach taken as a whole or
specifically for the grant program administered by the Long Beach Police
Department. An independent Certified Public Accountant conducted an audit
of Long Beach's financial statements. The results of this audit were reported
in the Single Audit Report that accompanied the Independent Auditors’
Report for the year ending September 30, 2008. The Single Audit Report
was prepared under the provisions of Office of Management and Budget
Circular A-133. We reviewed the independent auditor’s assessment to
identify control weaknesses and significant noncompliance issues related to
Long Beach or the federal programs it was administering, and assessed the
risks of those findings have on our audit.




                                    - 16 -
      In addition, we performed limited testing of source documents to
assess the accuracy of reimbursement requests and FSRs. However, we did
not test the reliability of the financial management system as a whole, nor
did we place reliance on computerized data or systems in determining
whether the transactions we tested were allowable, supported, and in
accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s Grants
Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data for the purposes of our audit.
However, the OIG has not performed tests of the GMS system specifically,
and we therefore cannot definitively attest to the reliability of GMS data.




                                   - 17 -
                                                                                                APPENDIX II 


                                   GRANTEE RESPONSE 





 •l-
       '~                      CITY OF LONG BEACH
                                        QfFICE OfntE CITYIAANAGER


               nI WE!lT 0C£NI 8OUlEII>.RO • 'ONG!IUoCH. OllIF(lRHtA 11lIIIO<' • ~IJ)"""


PATRICIO, WEST
 = ~-


       AlIgust 24, 2010

       David J. Ga$Chke 

       Regiona l Audit Manager 

       OffICe of the Inspector General 

       U.S. Department of Justice 

       1200 8ayhill ~rive, Suite 201 

       San Bruno, California 94066

       Dear Mr. Gaschke:

       This letter addresses your draft audit report on the Audit of the Off~ of JlIStice
       PrOQrams Edward Byrne Memorial Justice Assistance Grant Program - Grant
       Awarded to City of long Beach, Calrtomfa. dated August 9, :l010.

       1. Remedy $66,403 in     ques~oned     costs for inadequately supported contractual
       payments .

       The Long Beach Police Department (LBPD) staff continues to war!<. daily with the
       c.ontracted Deputy Probation Officer (OPO), thereby monitoring the OPO's
       activity and bme wooed. In response 10 audoor concerns. LBPD staff has
       obtained copies 01 the OPO's tirne<:ards fO( the invoices paid, and reviewed ,
       approved and initialed them in order to provide physical dOClJmentation of
       approval. Beginning April 2010. lBPO staff review and initial the OPO's
       timecards. review and initial changes and C(llTections to the tmecards , and
       maintain copies on me for invoice support documentation. Add~ionally, LBPD
       staff will l'erffy the totals on each invoice againsl the timecafds.

       2. Remedy $54S      in questioned C(lsts lor ovefbi lled    Oep~y     Probaton Officer
       oven ime.

       LBPO staff failed to request supporting documentation for the July 8"', 2009
       Board of SuparviS0f5 approvat of the rata increase as noted on the invoices.
       Following avdttor C(lflCemS, LBPO staff C(lntacted the County of Los Angeles
       (CoLA) fe<.lvesling documentation, CoLA staff determined the rate increase was
       in elTOr and recalculate<:! C(lsts Oue to a wrection to overtime hours, the total
       correction to the overbining is $332.21 and funds have been returned to !he




                                                       - 18 ­
Gaschke - August 24, 2010
Response to OIG Audil PO JAG 08
Page 2

gl<ln1. Henceforth, LBPD staff will reql.le$t documentation to support all actions
that affect contract costs prior to payment.

3. Ensure that Long Beach strengthens its internal controls related to ijs approval
and authorizalion of vendor invoices and paymenls.

As noted above . LBPD has imp~mented controls 10 include documentation for all
charges and charoges prior to approval and aulhorizalion of vendor invoices and
payments .

4. Ensure that Long Beach submijs to OJP accurate and             comp~te    annual
Progress Reports.

LBPD staff relied upon internal semI-annual summary reports to complete !he
OJP annual Prog ress Reports . LBPO staff wi ll now use the more detailed
monthly repo!lto compile and comp~te the anrlUal Progress Report in order to
include as many details as possible.

5. Remedy $5,035 in questioned costs that exceeded the allowable Umijs for
administrative costs Chilrged to grant as the County 01 Los Angeies' support staff
services.

6. Reme<ty $5.035 in fundS to Better Use !hal is anticipated 1 be paid by Long
                                                              0
Beach and that exceed allowable limb for administrative costs charged to the
gl<lnl as the County Of Los Angeles' support stilff services.

The DPO contrilct slipuliltes cost breakdowns thai include Supporting Staff,
further defined as iodividU<lls who monitor and supervise court·ordered juvenile
and adull probationers within the City of Long Beach to conform to the Probation
Department's Prevention and Intervention Department. To address the audit~'
cor>eerns . the LaPD submitted a Grant Adjustment NotifICation (GAN) to further
expand upon the narrative for clarification 01 the contraclIJal cost breakdown . The
Office of Justice Programs approved the GAN on 5I6J10 to include the narrative
detail.

7. Ensure that Long Beach strengthens its internal controls by establishing
wr~len policies and procedures lOt monitoring contraclOl"S .


The LBPO has pul into place procedures to obtain supporting documentation that
is maintained on site. Supporting documentation includes initialed timecards to
support the time worked by the OPO. The ~mecards will be used to support the
in'i01oos re<:eived . with costs compared against the contracted amounts.
Furthermore. any changes to costs will be supported with documentation as
allowed by the contract. Based upon the addition of documentation to support the
ongoing supervision and mon~oring of the DPO. the invoices 3nd payments. and




                                         - 19 ­
Gaschke - August 24, 2010 

Response to DIG Aud rt PO JAG 08 

Page 3 


changes to the conl racted amounts, Long Beach meets the requirements 10
monrtor Ihe contractor.

If you have any questions or require additional information, please contact
Commander Laura Farinella. PoHce Department Chief of Staff. at
(562) 57Q.7301.


Sincerely,


Qj~
Patrlck H. West 

City Manager 





                                     - 20 ­
                                                                                                APPENDIX III


       DEPARTMENT OF JUSTICE RESPONSE


                                                      u.s. Department of Justice
                                                      Office of Justice Programs

                                                      Office of Audit, Assemnent, and Management


                                                      1IIIsNot .... D.C 2QSJI
     SEP 0 1 1010


MEMORANDUM TO:                David 1. Gaschke
                              Regional Audit Manager
                              Office of W: Inspector General
                              San Francisco Rcgional Audit Office

FROM:                         Maureen A. Henneber..§ Ir. . _!/.. _ .
                              Director   yP4.~ 8-A                              t
SUBJECT:                      Response to the Draft Audit Report, Office ofJustice Programs.
                              Edward Byrne Memorial Justice Assistance Grant Program, Granl
                              Awarded to the City afLong Beach, California

This memorandum is in response to yourCQJ"l"espondcnce, dated August 9, 2010, transmitting the
subject draft audit report for the City of Long Beach, California (City). We consider the subj ect
report resolved and request written acceptance of this action from your office.

The tqXIrt contains seven rerommendatiollS, $34,122 in questioned costs, and $39,157 in funds
put to better use. The following is the Office of Justice Programs' (OlP) analysis of the draft audit
report recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

I.      We ruomm t nd that OJP remedy $64,803 in qu estioned costs for inadequately
        ~ upportcd ~ontractual paymeDt~.


        We agree with the recommendation. We will coordinate with the City to remedy $64,803
        in questioned costs for inadequately supported con1nlctual payments.

2.      We recommend tbat OJP remedy the $548 in qucstioned costs for overbilled Deputy
        Probation Officer overtime.

        We agree with the recommendation. We will coordinate with the City to remedy the $548
        in questioned costs for overbilled Deputy Probation Officer overtime.




                                           - 21 ­
3.   We reCilmmfnd that OJP ensure that Long Beach strength en, its internal controls
     related to its approval and au thorization ofvendor invoicu and payments.

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     implemented procedures which strengthens its internal controls related to its approval and
     authorization of vendor invoices and payments.

4.   We recommend that OJP ensure that Long Reach snbmits to OJP accurate and
     complete progress reports.

     We agree with the recommendation. We will coordinate with the City to obtain a copy of
     implemented procedures 10 ensure that progress reports are accurate and timely submitted
     toOJP.

5.   We recommend that OJP remedy tbe $5,035 in questioned costs that exceeded Ibe
     allowable limits for adminutrative costs cbarged to tb e grant as tbe Co unty ofLo,
     ADgeles ' support staff serv ices.

     We agree with the reeommendation. We will coordinate with the City 10 remedy the
     $5,035 in questioned costs that exceeded tbe allowable limits for administrative COllis
     cbarged to grant 2008·DJ·BX-0229 as the CoMty ofLoo Angeles ' support staff services.
     We wilt also coordinate with the Bureau of Justice Assistance (BJA) to request that the
     City provide a copy of its contracllsub-grant with the CoWlty of Los Angeles, and review it
     10 determine cost alJowabilily.

6.   We recommend tbat OJP remedy the S5,035 in funds Put to Beller Use tbat is
     anticipated to be paid by Long Beach and that ctceed allowable limits for
     adminutrative costs charged to tbe grant as the Cou nty of Los Angeles' support staff
     se...·ices.

     We agree with the recommendation. We will coordinate with the City 10 remedy the
     55,035 in funds pullo better use that is anticipated 10 be paid by the City and thai exceed
     allowable limits for administrative coSls charged to grant2008·DJ·BX-0229 as the COMty
     ofLoo Angeles' !1IIpport staff services. We win also coordinate with the BJA to request
     thar the City provide a copy of its contrncllsob-grant with the CoMty of Los Angeles, and
     review it to dctennine cost alJowabiJity.

7.   We ftl.!ommend that OJP ensure tbat Long Buch strengthens its internal ton trois by
     establishing written polici es and pro~edures for monitoring contractors.

     We agree with the recommendation. We will coordinate with the City to ensure they
     develop and implement written policies and procedures for monitoring contractors.




                                              2




                                          - 22 ­
We appreciate the opportunity to review and comment on the draft audit fC]XIl1. If you have any
questions or require additional information, please contact Jeffery A, Haley, Deputy Director,
Audit and Review Division, on (202) 6\6-2936.

ec:    Jeffery A. Haley
       Deputy Director, Audit and Rev iew Division
       Office of Audit, Assessment, and Management

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Dean 1,,1lSaki
       Program Manager
       Bureau of Justice   As.ist~1)l"'"


       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OW Executive Secretariat
       Control Nwnber 20101701




                                                3




                                           - 23 ­
                                                                APPENDIX IV

        OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

        The OIG provided a draft of this audit report to OJP and Long Beach.
 Their responses are incorporated respectively as appendices II and III of this
 final report. The following is the OIG’s analysis of the responses and
 summary of actions necessary to close the report.

 1.    Resolved. OJP concurred with our recommendation and stated that it
       will coordinate with Long Beach to remedy $64,803 in questioned costs
       for inadequately supported contractual payments. Long Beach stated
       that it will obtain and maintain copies of the Deputy Probation Officer’s
       timecards, review and initial the timecards, and verify the totals on
       each invoice against the timecards. This recommendation can be
       closed when OJP provides us with a description of how it plans to
       remedy the questioned costs. In addition, please provide us with
       evidence that Long Beach implemented procedures to ensure proper
       review and approval of the Deputy Probation Officer’s timecards,
       especially before the related invoices are paid.

 2.    Resolved. OJP concurred with our recommendation and stated that it
       will coordinate with Long Beach to remedy $548 in questioned costs
       for overbilled Deputy Probation Officer overtime. Long Beach stated
       that the overtime rate increase was an error and it recalculated the
       overtime costs. According to Long Beach, the correction to the
       amount overbilled was $332 and funds were returned to the grant. In
       addition, Long Beach stated that it will request supporting
       documentation for all actions that affect contract costs prior to
       payment. This recommendation can be closed when OJP provides us
       with a description of how it plans to remedy the questioned costs. In
       addition, please provide us with evidence that the overbilled amount
       was returned to the grant and procedures have been established that
       would require Long Beach staff to obtain supporting documentation for
       all actions that affect contract costs prior to payment.

 3.    Resolved. OJP concurred with our recommendation and stated that it
       will coordinate with Long Beach to obtain a copy of implemented
       procedures which strengthens Long Beach’s internal controls related to
       its approval and authorization of vendor invoices and payments. Long
       Beach stated that it has implemented controls to include
       documentation for all charges and changes prior to approval and
       authorization of vendor invoices and payments. This recommendation




                                     - 24 -
     can be closed when OJP provides us with a copy of Long Beach’s
     procedures that include stated enhancements to Long Beach’s invoice
     and payment authorization process.

4.   Resolved. OJP concurred with our recommendation and stated that it
     will coordinate with Long Beach to obtain a copy of implemented
     procedures that ensure Long Beach submits to OJP accurate and
     timely progress reports. Long Beach stated that it will use more
     detailed reports to compile and complete the annual progress report.
     This recommendation can be closed when OJP provides us with a copy
     of Long Beach’s procedures that ensure only accurate progress reports
     are submitted to OJP.

5.   Resolved. OJP concurred with our recommendation and stated that it
     will coordinate with Long Beach to remedy $5,035 in questioned costs
     for administrative transactions that exceeded allowable grant limits.
     Furthermore, OJP will coordinate with the BJA to review the contract
     between Long Beach and the County of Los Angeles Probation
     Department in order to determine cost allowability. Long Beach stated
     that it submitted a Grant Adjustment Notice to OJP in order to clarify
     the contractual cost breakdown and OJP approved the Grant
     Adjustment Notice on May 6, 2010. This recommendation can be
     closed when OJP provides us with a description of how it plans to
     remedy the questioned costs and it provides us with the results of the
     BJA’s cost allowability determination.

6.   Resolved. OJP concurred with our recommendation and stated that it
     will coordinate with Long Beach to remedy the $5,035 in funds put to
     better use for administrative transactions that exceeded allowable
     grant limits. Furthermore, OJP will coordinate with the BJA to review
     the contract between Long Beach and the County of Los Angeles
     Probation Department in order to determine cost allowability. Long
     Beach stated that it submitted a Grant Adjustment Notice to OJP in
     order to clarify the contractual cost breakdown and OJP approved the
     Grant Adjustment Notice on May 6, 2010. This recommendation can
     be closed when OJP provides us with a description of how it plans to
     remedy the questioned costs and it provides us with the results of the
     BJA’s cost allowability determination.

7.   Resolved. OJP concurred with our recommendation and stated that it
     will coordinate with Long Beach to ensure Long Beach develops and
     implements written policies and procedures for monitoring contractors.
     Long Beach stated that it has established procedures to obtain and
     maintain timecards supporting the Deputy Probation Officer’s hours.


                                  - 25 -
According to Long Beach, these timecards will serve as support for
invoices. This recommendation can be closed when OJP provides us
with evidence that Long Beach developed and implemented written
policies and procedures for monitoring contractors.




                            - 26 -
